Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medicare Allowances for
       Lymphedema Pumps




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY1998
                      OEI-04-97-00130
                          OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

    GION                                                          QUARTERS

Betty Apt, Project Leader                               Stuart Wright, Program Specialist
Jacqueline Watkins, Program Analyst                     Brian Ritchie, Technical Support
Greg Jones, Program Analyst



        To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7743.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE                       SUMMARY
PURPOSE

To summarize trends in Medicare allowed charges for lymphedema pumps, and to ascertain the
impact of Office of Inspector General investigations and Health Care Financing Administration
controls on Medicare payments for lymphedema pumps..

BACKGROUND

Lymphedema pumps are pneumatic compression devices used to treat patients afflicted with
lymphedema. Lymphedema is a condition characterized by swelling of tissues in an affected
body part due to accumulation of excessive fluid.

FINDINGS

Medicare allowed charges for lymphedema pumps skyrocketed from 1991 to 1995

Medicare allowed charges for the most expensive type lymphedema pump (E0652) increased
from $18.5 million in 1991 to $106.7 million in 1995--almost a 500 percent increase in 4 years.

The Office of Inspector General focused a national initiative on fraudulent   lymphedema pump
suppliers

In September of 1994, the Office of Investigations, Office of Inspector General (OIG) began a
national initiative to curtail lymphedema pump fraud and abuse. Resulting from that initiative,
some DME suppliers were convicted for fraudulently misrepresenting the type of pump issued to
Medicare beneficiaries in order to obtain higher reimbursement.

Durable Medical Equipment Regional Carriers and The Health Care Financing
Administration enhanced policies and controls for lymphedema pumps

Concurrent with the OIG investigations and convictions, Durable Medical Equipment Regional
Carriers (DMERCs) began to intensify their review of lymphedema pump claims. Additionally,
the Health Care Financing Administration (HCFA) began to develop new coverage and payment
policies. The policies limited coverage of the most expensive model lymphedema pump to very
specific instances, and then only after other treatments and less expensive model pumps had been
tried. Further, HCFA required that a Certificate of Medical Necessity (CMN) accompany claims
for all models of lymphedema pumps. Providers also had to submit documentation that more
conservative methods of treatment had been ineffective in treating a lymphedema condition.




                                                i
Medicare allowances for lymphedema pumps have declined dramatically since 1995

Medicare allowed charges for the most expensive type of lymphedema pump (E0652) dropped
from $106.7 million in 1995 to $8.8 million in 1996--a 92 percent decrease in 1 year.

Efforts of the OIG, HCFA, and DMERC will save the Medicare program $381 million

The efforts of the OIG, HCFA, and DMERCs saved the Medicare program $76.2 in 1 year. If
HCFA’s new documentation requirements and continued OIG surveillance succeed in
discouraging unnecessary payments for the expensive model lymphedema pump, the 5-year
savings will total $381 million.

CONCLUSION

In view of the apparent success in dealing with this problem, the OIG is canceling further
inspection of this equipment. We will continue to monitor expenditures and re-instate a study if
necessary.




                                                ii
                          TABLE                          OF CONTENTS 

                                                                                                     PAGE 

EXECUTIVE        SUMMARY 


INTRODUCTION            ............................................................. 
                  .

FINDINGS 


 @Medicare Allowances Skyrocketed ............................................. 
                       .2

 l OIG Initiative Focuses on Fraudulent Suppliers ................................... 
                 .2

 l DMERCs and HCFA Enhance Policies and Controls ............................... 
                      .4

 @Medicare Allowances Decline Dramatically ...................................... 
                     .5

 @Medicare Saves $381 Million                  ................................................. 
      .5

CONCLUSION          ............................................................... 
                    .
                            INTRODUCTION 

PURPOSE 


To summarize trends in Medicare allowed charges for lymphedema pumps, and to ascertain the 

impact of Office of Inspector General investigations and Health Care Financing Administration 

controls on Medicare payments for lymphedema pumps. 


BACKGROUND 


Medicare Coverage of Lymphedema Pumps 


Medicare covers pneumatic compression devices, commonly called lymphedema pumps, for 

Medicare beneficiaries afflicted with lymphedema. Lymphedema is a relatively uncommon 

medical condition characterized by swelling of tissues in an affected body part due to 

accumulation of excessive fluid. The condition results from an impairment to the normal 

clearing function of the lymphatic system or from excessive production of fluid from lymphatic 

vessels. Factors precipitating the onset of lymphedema include surgical procedures involving 

removal of groups of lymph nodes, obstruction of the lymphatic system by malignant tumors, 

and congenital anomalies. Lymphedema pumps are medical devices designed to control and 

reduce swelling in affected body parts, usually a limb. 


Medicare reimburses for lymphedema pumps under three different HCPCS codes: E0650, 

E065 1, and E0652. Generally, lymphedema pumps are classified as either segmented or non-

segmented, depending on whether distinct segments of the devices can be inflated sequentially. 

The less sophisticated, and least expensive pumps, are coded E0650 and E065 1, and cost 

Medicare about $600 and $800, respectively. The most sophisticated and expensive pumps are 

coded E0652, and cost Medicare about $4,000 to $6000. This device is characterized by 

calibrated gradient pressure, capable of delivering individually determined pressure to each 

segmental unit. 


METHODOLOGY 


To summarize trends in Medicare allowed charges for lymphedema pumps, we obtained and 

arrayed expenditure data for lymphedema pump codes. We obtained data from the Medicare Part 

B Extract and Summary System (BESS). To ascertain the impact of Office of Inspector General 

investigations and HCFA payment controls, we reviewed recent reports, congressional 

testimony, and national investigation results related to lymphedema pumps. 




We conducted this inspection in accordance with the Quality Standards for Inspections issued by 

the President’s Council on Integrity and Efficiency. 



                                                1
                                   FINDINGS 

MEDICARE ALLOWED           CHARGES      FOR LYMPHEDEMA                     PUMPS SKYROCKETED
FROM 1991 TO 1995

As illustrated in Figure 1, Medicare allowed charges for the most expensive type lymphedema
pump (E0652) increased from $18.5 million in 1991 to $106.7 million in 1995--almost a 500
percent increase in 4 years. Lymphedema pumps coded E0650 and E065 1 did not experience
large increases as did those coded E0652.

                                         Figure 1 

                               Medicare Allowed Charges for 

                                    Lymphedema Pumps 





                                      1992             1993         1994
                                                       Year
                                      --v-- E065Chs-     E065l-t~   E0652
THE OFFICE OF INSPECTOR           GENERAL FOCUSED A NATIONAL                      INITIATIVE   ON
FRAUDULENT  LYMPHEDEMA             PUMP SUPPLIERS

The Office of Investigations, Office of Inspector General (OIG) has been investigating
lymphedema pump suppliers since the early 1990s. However, in September 1994, the Office
began a national initiative to curtail lymphedema pump fraud and abuse. The OIG served 30
durable medical equipment suppliers with subpoenas asking for all records from 1989 through
 1993 related to their lymphedema pump billing. .

Resulting from the 1994 OIG initiative, HCFA suspended payments for some medical suppliers
until the investigations were completed. Also, some DME suppliers were convicted for
fraudulent practices. For example, several investigations showed that manufacturers and
providers misrepresent the type of pump issued to Medicare beneficiaries in order to obtain



                                                2

higher reimbursement. In some cases, the more expensive lymphedema pump was provided to
patients who had only regular edema which could have been treated with the lower cost pump.

Suppliers used various scams to get reimbursed for lymphedema pumps. The following is a
sample of OIG cases concluded during the last 3 years:

       1995

       A New Jersey DME company submitted claims for lymphedema pumps that did
       not meet specifications, resulting in overpayments of approximately $192,960.
       The supplier agreed to repay $100,000, and entered into a compliance plan
       designed to prevent future improper billings.



       A Maryland DME company agreed to pay $1.5 million to resolve liabilities under
       the Civil Monetary Penalties Law. The company submitted claims for
       lymphedema pumps that did not meet specifications for the code used. The
       company was overpaid $690,000.

       Two New Jersey DME suppliers who had billed Medicare $5000 for pumps that should
       have been reimbursed at $600 agreed to pay Medicare close to $1 million. The company
       that sold the pumps to the suppliers also agreed to pay $4.9 million to settle allegations
       that they had misrepresented the product.



       A New Jersey supplier was sentenced for Medicare fraud and obstruction of
      justice. The supplier billed Medicare for pumps that were medically unnecessary.
       The false claims that the supplier submitted indicated that a less expensive pump
      had been tried before using the more expensive one. The supplier was ordered to
      pay $220,100 in restitution.

       A Washington State DME owner was sentenced to 12 months. This supplier
       billed Medicare for the most expensive lymphedema pumps, but delivered less
       expensive pumps. The supplier was required to pay $148,500 in restitutions,
       fines, and penalties.




                                                3

DURABLE MEDICAL EQUIPMENT     REGIONAL CARRIERS AND THE HEALTH
CARE FINANCING ADMINISTRATION    ENHANCED POLICIES AND CONTROLS
FOR LYMPHEDEMA   PUMPS

Concurrent with the OIG investigations and convictions, in 1994 Durable Medical Equipment
Regional Carriers (DMERCs) began to intensify their review of lymphedema pump claims. For
example, DMERCs began to automatically review claims for all three models of lymphedema
pumps.

Also, the Health Care Financing Administration (HCFA) began to develop expanded coverage
and payment policies. HCFA required that a Certificate of Medical Necessity (CMN)
accompany claims. A CMN is a form that a physician completes and signs to certify that a
patient has a documented, medical need for a lymphedema pump. The CMN elicits specific
information about a patient’s medical condition and need for a lymphedema pump.

HCFA further required that documentation of a patient’s condition accompany a claim for
reimbursement. A simple diagnosis code on a claim or CMN is rarely adequate to explain a
patient’s condition. There should also be documentation that conservative measures were tried
before ordering a pump to treat lymphedema condition. Such measures may include limb
elevation and custom fitted gradient-pressure compression dressings.

In 1995, HCFA further revised its lymphedema coverage and payment policy to require that the
most expensive lymphedema pump (E0652) be used as a treatment of last resort. A physician is
required to provide additional information to document the need for the more expensive pump.
The information must include

  0    more details about a patient’s medical condition than claims for the less expensive pumps,

  0	   nature, time, and results of other treatment methods attempted, including the less
       expensive pumps,

  0    treatment plan, including details about the pressure needed for each chamber of the pump,

  0    features of the provided system that a patient requires, and

  0    pump model number and manufacturer’s name.
MEDICARE ALLOWED CHARGES                               FOR LYMPHEDEMA                      PUMPS HAVE DECLINED
DRAMATICALLY  SINCE 1995

As illustrated in Figure 2, Medicare allowed charges for the most expensive type lymphedema
pump (E0652) dropped from $106.7 million in 1995 to $8.8 million in 1996--a 92 percent
decrease in 1 year.

                                                     Figure 2 

                                           Medicare Allowed Charges for 

                                               Lymphedema Pumps 

                $120 ~“-‘--‘“---                                              x-           x~““““_“---_­

                          “l-~-lll.-l---          ._..l.“.-“.--   -.-...“.                  _.-..““...“..-.
                                                                                                         . _......_.
                                                                                                               -_-.




                                                                   Year
                                               --v-    E0650-0          E06!3+3-   E0652

Medicare allowed charges for code E0652 continued to decline in 1997. Claims for January
through September 1997 totaled approximately $460,000. HCFA estimated that those claims
represent about 63 percent of claims that were be filed for 1997. Therefore, projected claims for
code E0652 are around $730,000, as compared to $8.8 million in 1996.

Allowed charges for pumps submitted under code E065 1 increased about $2.7 million.                                    Allowed
charges for Code E0650 pumps remained relatively unchanged.

EFFORTS OF THE OIG, HCFA, AND DMERC WILL                                           SAVE THE MEDICARE
PROGRAM $381 MILLION

Compared to the peak level of 1995, the efforts of the OIG, HCFA, and DMERCs have been
successful. Combined, those efforts reduced Medicare allowed charges for the code E0652 pump
$97.9 million in one year. Taking into consideration the $2.7 million increase in the code E0651
lesser-priced pump, Medicare allowed charges for all pumps decreased $95.2 million.

The reduction in allowed charges resulted in a savings of $76.2 million for 1996 in Medicare’s 80
percent portion of allowed charges. This brings the projected 5-year savings to $381 million.




                                                                  5

                              CONCLUSION
Concerted efforts by the OIG, HCFA, and DMERCs seem to have curtailed growth and
contributed to declines in Medicare allowed charges for the most expensive model lymphedema
pumps. Prosecutions of and payment of restitutions by lymphedema pump suppliers has sent a
message that fraudulent billing for lymphedema pumps will not be tolerated. New policies and
more stringent documentation requirements by DMERCs made billing for the high priced
lymphedema pumps more difficult.

In view of the apparent success in dealing with this problem, the OIG is canceling further
inspection of lymphedema pumps. We will continue, however, to monitor expenditures and re-
instate an inspection if necessary.




                                              6

